OIG Investigative Reports, Las Vegans Indicted for Financial Aid Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
For Immediate Release
Las Vegas, June 7, 2004
U.S. Department of Justice
United States Attorney
District of Nevada
333 Las Vegas Boulevard South, Suite 5000
Las Vegas, NV 89101
PRESS CONTACTS:
Natalie Collins, Public Affairs Specialist
(702) 388-6508
Las Vegans Indicted for Financial Aid Fraud Scheme: Alleged U.S. Department of Education Fraud Involves Over $1,000,000
LAS VEGAS - A Las Vegas woman, and her four children and three grandchildren, have been indicted by the Federal Grand Jury on conspiracy, financial aid fraud, and identity theft charges, announced Daniel G. Bogden, United States Attorney for the District of Nevada.
ANN ARMSTRONG, age 61, ANTHONY ARMSTRONG, age 38, MICHELLE ARMSTRONG, age 42, ROYALE ARMSTRONG, age 36, YASMIN ARMSTRONG, age 21, JASON JONES, age 21, and JUSTIN JONES, age 21, all of Las Vegas, Nevada, and MICHAEL ARMSTRONG, age 26, of Austin, Texas, are charged in a 33-count Indictment with one count of Conspiracy and one count of Financial Aid Fraud. In addition, defendant ANN ARMSTRONG is charged with five counts of Wire Fraud, 20 counts of Mail Fraud, and one count of Identity Theft. Defendants YASMIN ARMSTRONG, MICHAEL ARMSTRONG, MICHELLE ARMSTRONG, ROYALE ARMSTRONG, and JASON JONES are also charged with one count of Identity Theft.
They are facing up to five years in prison and a fine of $250,000 on the conspiracy and financial aid fraud charges, up to 20 years in prison and a $250,000 fine on each of the mail fraud and wire fraud charges, and up to 15 years in prison and a $250,000 fine on each of the identity theft charges.
The indictment alleges that from about January 2000 to March 2004, the defendants obtained personal identifying information for various persons, and used it to apply for federal student loans and grants in "distance learning" institutions in several states.  The students, in whose names the defendants applied for the financial aid, were ineligible for the aid because they had not maintained a 2.0 grade point average or successfully completed courses.  Checks for the loans or grants were allegedly sent in the student's name to addresses provided by the defendants, and the defendants then picked up the checks and cashed or deposited them in bank accounts using false identification.
The defendants allegedly obtained approximately $1,000,000 in federal student loans and grants from distance education institutions in Nevada, Colorado, Texas, Arizona, and Maryland, including Truckee Meadows Community College in Reno and the Community College of Southern Nevada in Las Vegas. In Nevada alone, the Indictment alleges that the defendants fraudulently obtained approximately 76 federal grants and loans totaling over $400,000.
The fraudulent scheme was initially reported to the U.S. Department of Education Office of Inspector General by a financial aid officer at Truckee Meadows Community College in Reno. The financial aid officer observed that a number of students were applying for financial aid using the same addresses and telephone numbers.  An investigation was initiated, ultimately leading to the filing of a criminal complaint and issuance of arrest warrants against the defendants.
Defendants ANN ARMSTRONG and MICHELLE ARMSTRONG pleaded not guilty and are in custody; defendants ANTHONY ARMSTRONG, ROYALE ARMSTRONG, and  YASMIN ARMSTRONG pleaded not guilty and are released on bond; and arrest warrants are pending for defendants JASON JONES, JUSTIN JONES, and MICHAEL ARMSTRONG.  The trial date for those who have appeared is set for August 9, 2004, before U.S. District Judge Lloyd D. George.
This case is being investigated by Special Agents with the Department of Education Office of the Inspector General, and is being prosecuted by Assistant United States Attorney Russell E. Marsh.
The public is reminded that an indictment contains only charges and is not evidence of guilt.  The defendants are presumed innocent and entitled to a fair trial at which the government has the burden of proving guilt beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov